<html>
<title> - INTERNATIONAL EFFORTS TO END DISCRIMINATION AGAINST WOMEN</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




       INTERNATIONAL EFFORTS TO END DISCRIMINATION AGAINST WOMEN

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 3, 2000

                               __________

                           Serial No. 106-158

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-625 CC                  WASHINGTON : 2000
                                 ______


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                  Stephen G. Rademaker, Chief Counsel
                  Nicolle A. Sestric, Staff Associate


                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Lynn Woolsey, a Representative in Congress from the 
  State of California............................................     6
The Honorable Carolyn B. Maloney, a Representative in Congress 
  from the State of New York.....................................  6, 8
The Honorable Constance A. Morella a Representative in Congress 
  from the State of Maryland.....................................    10
The Honorable Theresa Loar, Director, President's Interagency 
  Council on Women and Senior Coordinator for International 
  Women's Issues, U.S. Department of State.......................    20

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York and Chairman, Committee on 
  International Relations........................................    34
The Honorable Lynn Woolsey.......................................    35
The Honorable Carolyn B. Maloney.................................    37
The Honorable Constance A. Morella...............................    41
The Honorable Theresa Loar.......................................    44

Additional material submitted for the record:

Response by the Department of State to the additional question 
  submitted for the record by Representative Dana Rohrabacher....    56
Language on equality of women and men adopted by the Organization 
  for Security and Cooperation in Europe, Charter for European 
  Security, Istanbul, November 1999, submitted by Representative 
  Christopher H. Smith...........................................    58
Excerpts from Reports of the Committee on the Elimination of 
  Discrimination Against Women, submitted by Representative 
  Christopher H. Smith...........................................    59

 
       INTERNATIONAL EFFORTS TO END DISCRIMINATION AGAINST WOMEN

                              ----------                              


                         WEDNESDAY, MAY 3, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman, (Chairman of the Committee) presiding. 
    Chairman Gilman. The Committee on International Relations 
meets today to receive testimony on international efforts to 
end discrimination against women.
    This Committee has repeatedly affirmed its support for the 
rights of women. Most recently, on November 9 of last year we 
approved H.R. 3244, the Trafficking Victims Protection Act, 
which is intended to increase the protections under U.S. and 
foreign law for victims of sexual trafficking and slave-like 
working conditions, most of whom are women.
    This legislation, which moved forward in our Committee 
under the leadership of Mr. Smith and Mr. Gejdenson, as well as 
other Members of this Committee, should soon be on the House 
Floor, and we hope it will make a significant contribution to 
our international efforts to increase the protections available 
to women.
    Regrettably, for reasons that I have never found 
persuasive, the Administration opposes the Trafficking Victims 
Protection Act.
    The Administration has, however, been active in other areas 
in seeking to combat discrimination against women. One of those 
areas is the Convention on the Elimination of All Forms of 
Discrimination Against Women, the so-called CEDAW treaty. 
President Carter signed that Convention in 1980, but it has 
never been ratified by the U.S. Senate.
    The Convention is strongly supported by the Clinton 
Administration. Supporters of the Convention today blame the 
Senate Majority for the fact that the Convention has not been 
ratified. However, I submit that had President Clinton pressed 
this matter more vigorously during the first 2 years of his 
Administration, when Senator Pell chaired the Foreign Relations 
Committee, he might have obtained Senate ratification of the 
Convention in 1993 or 1994, and we would not be here talking 
about it today.
    The objectives of the Convention are laudable. Critics of 
the Convention have complained that it is overly broad, and I 
hope that our witnesses will be able to dispel those concerns. 
We look forward to hearing today's testimony about the steps 
the Administration is taking in this and other areas to end 
discrimination against women.
    I now recognize the Ranking Minority Member, the gentleman 
from Connecticut, Mr. Gejdenson, for any opening remarks.
    Mr. Gejdenson. Thank you, Mr. Chairman. I join with you in 
supporting this legislation and this hearing. Representative 
Woolsey has done outstanding work on it. We are very happy to 
see Congresswoman Maloney, also an active supporter, here 
today.
    We think that with 160 some other countries already on 
board, it is outrageous that the U.S. Senate has prevented the 
United States from becoming a signatory to this legislation, 
and I think that without any question we should move this very 
rapidly from our Committee.
    We see today a world where women are still finding 
discrimination not just in education, in health care, in the 
area of work, but even their survival in many societies is 
endangered by custom and activities which threaten the survival 
of women, abuse them physically, and sell them into slavery, 
and so it is outrageous that we in this country have not joined 
this international effort.
    I commend again Ms. Woolsey and her colleagues for their 
tremendous effort in this area.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Smith.
    Mr. Smith. Thank you very much. Mr. Chairman, there is no 
question that women in many countries face discrimination in 
areas such as employment, education, housing and access to 
financial resources. I am entirely sympathetic to this issue, 
and I welcome the opportunity to examine how the United States 
and this Congress can support substantive efforts to end such 
discrimination and can encourage full and equal respect for 
human rights of all people, women and children.
    Through law and practice, Mr. Chairman, the United States 
has been a leader in advancing equality of opportunity for 
women and men. The United States has ratified human rights 
instruments, including the International Covenant on Civil and 
Political Rights, which mandate non-discriminatory respect for 
fundamental human rights.
    I stand second to no one in my determination that human 
rights of all people should be respected. The Convention on the 
Elimination of All Forms of Discrimination Against Women, 
though, is not about ending discrimination against women in the 
United States because in this country women do possess tools 
necessary to seek redress if they face discrimination.
    CEDAW ratification is about furthering an agenda which 
seeks to insure abortion on demand and which refuses to 
recognize any legitimate distinctions between men and women. If 
there is any question on this, one need only look at the U.N. 
website, which proudly proclaims that CEDAW is the only human 
rights treaty which affirms the reproductive rights of women 
and targets culture and tradition as influential forces shaping 
gender roles and family relations.
    As a party to CEDAW, the United States would subject itself 
to the jurisdiction of a U.N. committee that was established to 
enforce compliance with CEDAW. Only a few examples of this 
committee's opinions are needed to demonstrate the agenda 
advanced by CEDAW.
    First, the CEDAW committee has interpreted the treaty's 
language on eliminating discrimination against women and access 
to health care to mean that it is discriminatory for the 
government to refuse to legally provide for the performance of 
certain reproductive health care services for women. This is a 
step toward the globalization of legalized abortion that I and 
many other of my colleagues can never support because, frankly, 
we believe that abortion is violence against children.
    If one just looks at the methods that are employed by the 
abortionist, dismemberment of an unborn child, chemical 
poisoning, these types of acts are violence against children. 
Many countries have come under the scrutiny of CEDAW, and they 
have been encouraged, admonished and even not compelled, but 
close to it, to change their laws that protect the rights of 
unborn children.
    Second, the treaty obligates state parties to modify the 
social and cultural patterns of conduct of men and women in 
order to eliminate stereotyped roles for women and men. As 
American citizens, we should be appalled by the notion that our 
government would assert the authority to modify the roles that 
a husband and wife have undertaken in their family because a 
government expert believes those roles are based on social or 
cultural stereotypes.
    Earlier this year, for example, the CEDAW committee 
demonstrated its view of such stereotyped roles when it 
expressed concern that Belorussia had introduced symbols such 
as a Mothers Day and Mothers Award. In the CEDAW committee's 
opinion, these symbols encourage women's traditional roles and, 
therefore, should be eliminated. Do our constituents, Mr. 
Chairman, really want a group of international bureaucrats 
telling them that the day set aside to honor our mothers must 
be abolished? I think not.
    The United States does not have to ratify CEDAW in order to 
be a leader in human rights. Signing a treaty does not make a 
country a leader in human rights. China and Burma, to name just 
a few examples, have both ratified CEDAW, but no one would 
seriously suggest that those countries have a better record 
than the United States for respecting the human rights of 
women.
    Rather than argue over legal instruments as controversial 
and fundamentally flawed as CEDAW, this Committee and this 
Congress should be discussing ways for the United States and 
other countries to implement the human rights commitments that 
already have been made. The United States is a leader in human 
rights because its actions demonstrate a belief that human 
rights must be respected equally for men and women.
    The United States has set an example for the international 
community by establishing effective mechanisms for women and 
men to seek redress when recognition of their rights is denied 
on the basis of sex. In the United States, if an individual 
suffers discrimination despite legal restrictions against it, 
he or she can seek legal recourse on the basis of anti-
discrimination legislation.
    This past year, Mr. Chairman, the U.S. delegation to the 
OSCE, and the Helsinki Commission which I chair, in the House, 
Senate and the Executive Branch, successfully advanced language 
in the Charter for European Security, and I strongly supported 
it, that commits OSCE participating States to ``make equality 
between men and women an integral part of our policies'' and 
that commits participating states to specifically ``undertake 
measures to eliminate all forms of discrimination against 
women.''
    What is needed now is implementation of such commitments. 
For example, the constitutions of most, if not all, of the OSCE 
countries, like scores of other countries in other regions, 
state that men and women have equal rights under the law, but 
despite this statement of principle women in most of these 
countries lack any effective legal redress if they face 
discrimination in employment, education, housing or access to 
credit.
    Using the OSCE framework and its own example, the United 
States can encourage other participating States to fulfill 
their OSCE commitments by adopting comprehensive anti-
discrimination legislation that enables women to assert their 
rights.
    The Congress can also take the lead in the international 
community, and I offered the resolution last year in St. 
Petersburg at the OSCE Parliamentary Assembly which seeks to 
crack down on this offensive, horrific abuse of women, 
especially in trafficking. Many trafficking victims are women 
who face unemployment in their native countries because of sex 
discrimination, but have no effective means of challenging that 
discrimination.
    Earlier in this Congress, Congressman Sam Gejdenson and I 
introduced a bill, H.R. 3244, which hopefully will be up on the 
Floor shortly, that would severely punish persons in the United 
States convicted of trafficking in human beings and provide 
incentives for foreign countries to initiate efforts to combat 
this outrageous abuse of women.
    Mr. Chairman, I would ask that some other documentation be 
included in the record, including the OSCE text that was 
adopted in Istanbul in November 1999 with regards to equality 
of rights.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Gejdenson. Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Smith.
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, frankly I am a little 
concerned about the issues raised by Mr. Smith. I know he does 
it earnestly, but I think that this is good legislation.
    Even though there are clearly countries that sign onto this 
Convention who may not be carrying it out, it is not the 
converse that without America's approval that somehow the 
situation is better. I know I am in support of this.
    Mr. Chairman, I was wondering. Are you planning to support 
this legislation, Mr. Chairman?
    Chairman Gilman. I am strongly in support of the objectives 
of the CEDAW convention. I am looking forward to today's 
hearing because I want to hear the Administration's responses 
to some of the objections that have been raised by critics of 
the Convention.
    Any other Members seeking recognition? Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. Let me just thank you for 
holding this hearing.
    The issue of discrimination against women in the United 
States and around the world is one that must be addressed, and 
I appreciate the Committee holding the hearing so we can hear 
from our colleagues on this, and thank you, Congresswomen 
Woolsey and Maloney, for being here and for taking the lead on 
our behalf.
    Unfortunately, discrimination against women is still 
widespread both in the United States and around the world. Here 
in our country, for example, the tools may be available to 
women, but often times they are not available due to either 
their race or economic status. The issue of race 
discrimination, domestic violence, economic opportunity, access 
to health care are still basic human issues that for some women 
present a struggle in their lives here in America and abroad.
    Certainly we have made significant strides, but there is 
much that needs to be done. CEDAW is a single, comprehensive 
treaty to protect women's rights and was drafted and pursued by 
advocates with United States participation. The year 2000 marks 
20 years since CEDAW was opened for ratification, so we must 
move this forward. It is a moral imperative. Congress must not 
turn a blind eye to the need to make women's rights around the 
world a priority.
    Thank you very much for the hearing again, Mr. Chairman. I 
look forward to the testimony.
    Chairman Gilman. Thank you, Ms. Lee.
    Any other Members----
    Mr. Hastings. Mr. Chairman.
    Chairman Gilman. Mr. Hastings. Judge Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing. I would like to compliment our 
colleagues, Ms. Maloney and Ms. Woolsey, for their leadership 
not only as it pertains to CEDAW, but on women's issues and 
issues with reference to people who are discriminated against 
in general.
    Mr. Chairman, I think it sends a very poor signal to 
countries around the world that the United States has not 
ratified the CEDAW treaty. I take this opportunity to point out 
that this is not the only treaty that does not allow for 
difficulties to be addressed. We have also not ratified the 
convention on the child, which was passed by the United Nations 
in 1989 and we became signatories to in 1995.
    Yesterday, Mr. Chairman, I filed some legislation hoping to 
remedy that particular problem and asking that the Senate 
expedite its business, as well as the Administration, with 
reference to the ratification of the CEDAW treaty and the 
convention on the child.
    In my view, we are lagging behind the rest of the world. On 
the convention of the child, only the United States and Somalia 
have not ratified that treaty. I find that abhorrent, and I 
equally find it abhorrent that we have not moved the pace with 
reference to the treaty that we are here about today.
    Thank you, Mr. Chairman, for holding this hearing.
    Chairman Gilman. Thank you, Judge Hastings.
    Any other Members seeking recognition?
    If not, we will now proceed with our panelists. Our first 
panel this morning consists of three of our distinguished 
colleagues, Congresswoman Woolsey, Congresswoman Morella and 
Congresswoman Maloney. Congresswoman Morella has not yet 
arrived.
    Congresswoman Maloney of New York is co-chairman of the 
Congressional Caucus on Women's Issues, and I will ask 
Congresswoman Maloney to submit her full statement for the 
record or summarize, whichever she sees appropriate.
    Congresswoman Maloney.

STATEMENT OF THE HONORABLE CAROLYN MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Maloney. Thank you, Mr. Chairman.
    Chairman Gilman. Would you hold on just a moment? Ms. 
Maloney's mike is not working. Would you test it again, please? 
Just test it if you would.
    Ms. Maloney. Thank you, Mr. Chairman.
    Chairman Gilman. It is still not working. Hold on just a 
moment.
    Ms. Maloney. OK. All right. Thank you, Mr. Chairman, for 
your supportive----
    Chairman Gilman. Thank you.
    Ms. Maloney [continuing]. Statements and Mr. Gejdenson and 
really many, Mr. Hastings, Ms. Lee, all of your statements and 
for supporting many of the initiatives of the women's caucus. 
This is among our must pass bills that have come forward in the 
women's caucus in a bipartisan way with Congresswoman Kelly.
    This particular bill was offered by my distinguished 
colleague, Ms. Woolsey, and I will defer to her for the opening 
statement and follow her comments.
    Ms. Woolsey. Thank you. Thank you very much, Madam 
Chairman.
    Chairman Gilman. Ms. Woolsey of California has been very 
active on women's rights and is the Minority Deputy Whip on the 
Floor, and she has also served on the Children's Task Force.
    Please proceed.

 STATEMENT OF THE HONORABLE LYNN WOOLSEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Woolsey. Thank you, Mr. Chairman and Ranking Member Mr. 
Gejdenson and all the wonderful Members that are here and 
interested in this issue this morning. I thank you for holding 
this hearing and allowing for the opportunity to testify.
    Mr. Chairman, since being elected in 1992, I have urged the 
Senate Foreign Relations Committee to ratify the convention on 
elimination of all forms of discrimination against women known 
as CEDAW. Knowing also, Mr. Chairman, your strong stand on 
women's international rights, I am hoping that following this 
hearing, this Committee will be able to mark up House 
Resolution 107, which urges the Senate to ratify CEDAW.
    CEDAW, a United Nations treaty, is considered the women's 
international bill of rights because it establishes basic human 
rights for women around the globe. These are rights not fully 
addressed in any other treaty. The United Nations recognized 
and actually condemned the devastating consequences of gender 
discrimination when it adopted CEDAW in 1979.
    Chairman Gilman. If I might interrupt, Ms. Woolsey? I am 
being called to the Floor. We have four Committee resolutions 
on the Floor, and I am going to ask Mr. Campbell, the gentleman 
from California, to preside.
    Ms. Woolsey. I will miss your presence, Mr. Chairman.

    Chairman Gilman. We will be back.
    Mr. Campbell [presiding]. Congresswoman Woolsey, please go 
right ahead.
    Ms. Woolsey. Thank you. It is nice to see you, Mr. 
Campbell.
    As I was saying,----
    Mr. Campbell. It is mutual Congresswoman.
    Ms. Woolsey [continuing]. CEDAW, a United Nations treaty, 
is considered the women's international bill of rights because 
it establishes basic human rights to women around the globe. 
These are rights that are not fully addressed in any other 
treaty.
    The United Nations recognized and condemned the devastating 
consequences of gender discrimination when it adopted CEDAW in 
1979. On July 1980, President Carter signed CEDAW and submitted 
it to the Senate for ratification. I am sad and disappointed to 
report that this year marks the 20th year that CEDAW has been 
available for United States ratification, but the Senate has 
yet to ratify.
    In 1994, the Senate Foreign Relations Committee held a 
hearing on CEDAW, reported in favor of its ratification with 
four reservations, reservations that respond to Congressman 
Chris Smith's concerns earlier this morning. There were four 
understandings and two declarations.
    These provisions address the overriding concerns that CEDAW 
critics maintain. Most of these concerns claim that CEDAW would 
override the United States Constitution, open the door to 
frivolous litigation, force social engineering and promote 
abortion. I am confident after reading what came out in the 
declarations in 1994 that these concerns were addressed, and 
hopefully the Senate Foreign Relations Committee will ratify 
CEDAW.
    CEDAW is ratified by 165 countries, all of our allies. I am 
disappointed that the Senate's inaction puts the United States 
in the company of North Korea, Sudan, Somalia and Iran. I am 
certain, and I know you will agree, that the United States does 
not belong in this company, particularly when it comes to 
women's rights.
    The United States played a major role in drafting CEDAW, 
and now we should live up to our commitment, and we must ratify 
it. Furthermore, without ratification the United States will 
not be a member at the international committee when the treaty 
monitors implementation of its provisions. We will be absent. 
The seat that should be filled by the United States will be 
vacant.
    While some critics feel the committee oversteps or makes 
radical recommendations, in fact it has no enforcement 
measures, but instead it creates a working framework for 
countries to utilize in their quest to promote women's rights. 
It is an advisory committee. It is an overview committee, but 
it can do no more than make recommendations.
    Making the United States a player on this committee would 
lend support to the treaty's effectiveness, and it will give 
the United States credibility when advocating on women's issues 
here at home and around the globe.
    Mr. Chairman, I would like to share two examples of how 
CEDAW has been effective. First, when Brazil redrafted its 
constitution it used CEDAW as the framework for articulating 
human rights for women. The Brazilian constitution now contains 
provisions on gender equality, gender based violence, state 
interest in the prevention of domestic violence, the equality 
of rights within marriage, family planning and employment that 
parallels CEDAW's provisions.
    On the continent of Africa, CEDAW has provided a vehicle 
for women. Zambia ratified CEDAW in 1995 and in 1991 extended 
its bill of rights to cover sex discrimination. Without that, 
many of the rights we have here in our country would not be 
available to the women in Africa.
    More important, there is a groundswell of support for 
ratification right here at home. Ten states, 14 counties and 26 
cities have passed resolutions advocating U.S. ratification of 
CEDAW. Last year, the Church Women United and the United 
Methodist Women and other supporters of CEDAW delivered more 
than 10,000 handwritten--every letter was individually written, 
and we delivered them to the Senators urging ratification. Each 
letter was to an individual Senator.
    I can assure those of you who are here today that not only 
are people from other countries looking for leadership from the 
United States, but so are our constituents. The people's House 
must go on record and urge the Senate to ratify CEDAW. Today's 
hearing is a great first step in this process.
    I look forward to continuing to work with the Committee and 
to place the United States in a strong standing for women's 
rights globally.
    I yield back my time. Thank you.
    [The prepared statement of Representative Woolsey appears 
in the appendix.]
    Mr. Campbell. Thank you, Congresswoman Woolsey, for your 
fine statement.
    Congresswoman Maloney, you had yielded to Congresswoman 
Woolsey. Did you wish to conclude?
    Ms. Maloney. Yes, I would, and I would like my comments to 
be placed in the record as read.
    Mr. Campbell. Without objection.

STATEMENT OF THE HONORABLE CAROLYN MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Maloney. I would like to underscore that this is a 
national disgrace, an international disgrace. As my colleague 
pointed out, 165 nations, countries, have ratified CEDAW. Our 
country stands alone with Sudan and North Korea and a few 
others.
    One point that I would like to point out in response to my 
dear friend and colleague, Mr. Smith's, earlier statements. 
There is nothing in CEDAW that states that on abortion. It has 
nothing to do with it. In fact, the Senate Foreign Relations 
Committee passed the Helms understanding stating that nothing 
in CEDAW creates a right to abortion and should not be promoted 
as a method of family planning, so I would like to offer that 
if he has an objection to any language in the treaty, we would 
entertain deleting it or talking to him about it because what 
he said is in it is not there.
    The convention continues to languish in the Senate, locked 
up in the committee, even though CEDAW contains no provisions 
in conflict with American laws, no action has been taken on 
CEDAW, and it is really absolutely fundamental.
    One aspect that is very important is that very shortly we 
will be going to the 5-year review of the international U.N. 
conference on women, and in the next 33 days will we or will we 
not endorse human rights of women across the world? That is 
what we are here to ask today. As many of my colleagues have 
said, the Ranking Member, others have said that we absolutely 
should do this. This is an absolute embarrassment. The 
Administration considers this a major priority.
    Family planning. If the gentleman is opposed to abortion, 
one way to prevent abortion is through family planning. As Mr. 
Campbell knows, he worked very hard last year on various family 
planning refunding actually for the first--our country created 
the U.N. population program, yet it was defunded, and Mr. 
Campbell led the refunding effort, and we thank you for that.
    You know that our population is more than 6,000,000,000 
now, and by 2050 the United Nations projects that this figure 
could double to 12,000,000,000. Most of this growth will occur 
in developing countries, the countries where the desire for 
family planning service is far greater than the supply.
    Already, more than 150,000,000 women and families want 
access to family planning services, but do not have the 
resources available to them. There are 2,000,000,000 young 
people quickly approaching their reproductive years, and will 
they have access to family planning, resources they need? This 
will have a direct impact on the economic stability of their 
countries, on the environment and really the entire world. 
Voluntary family planning would help all of these women, and 
CEDAW, although it has nothing to do with abortion, it does 
promote family planning.
    I must say that one thing that is tremendously problematic 
is that many nations' governments do not include women in their 
definition of human. Consequently, women are denied very basic 
rights. I truly believe that empowering women globally reduces 
the negative impact of HIV and AIDS, which Ms. Lee has worked 
so hard on, along with Chairman Leach, the negative impact of 
fast growing population on our rural environment and economy 
and improves the education and employment of over half of our 
world's community.
    The Women's Caucus has also supported two other 
resolutions, which I hope this Committee will take up. One is 
H.R. 187, which urges the United Nations to reject the Taliban 
as a legitimate government in Afghanistan, to deny the Taliban 
a seat in the General Assembly as long as they continue to 
practice horrific violations of women's rights.
    We have had hearings in the Women's Caucus. They must wear 
a berka. They are killed if they go to school. They are killed 
if they show an ankle or a hand. It is just horrific what is 
happening there.
    We have also worked on H.R. 1849 to require the Attorney 
General to publish regulations relating to gender related 
persecution, including female genital mutilation, for use in 
determining an alien's eligibility for asylum. This legislation 
helps women who are not fortunate enough to be born in the 
United States or other industrialized countries and who have no 
means to protect themselves. Although we grant asylum on many 
bases, we do not for gender related violence, and certainly 
female genital mutilation is a horrible, life threatening 
practice that needs to be terminated.
    In any event, if you read all of CEDAW it merely says let's 
empower women with education, with health care, with 
information, with knowledge. Let's empower them to be 
productive members of their communities and their villages and 
their societies. We should be part of the global effort to help 
women.
    Many countries look to the United States for leadership. It 
is an absolute total embarrassment. We should not have a 
government by one person, in this case Mr. Helms, who has held 
up this very important treaty. Again, 165 nations cannot be 
wrong. We should join 165 nations in time for the United 
Nations General Assembly where they review Beijing plus five.
    My distinguished colleague, Connie Morella, has joined us. 
Thank you very much, and I yield back the balance and would 
like my rather lengthy statement to be placed in the record, 
which is a lot more than what I said.
    [The prepared statement of Representative Maloney appears 
in the appendix.]
    Mr. Campbell. Congresswoman Maloney, your words will be 
included in the record barring no objection.
    Ms. Maloney. Thank you.
    Mr. Campbell. Hearing no objection, so ordered.
    We are joined now by Congresswoman Morella, the third 
member of our panel of Members. Congresswoman Morella has long 
been active in international and human rights issues. She was 
the first women to chair the Arms Control and Foreign Policy 
Caucus. She represented the United States at the U.N. 
Conference on Population and Development in Cairo. She co-
chaired the congressional delegation to the United Nations 
Fourth World Conference on Women in Beijing.
    She is the Subcommittee Chair of the Science Committee's 
Technology Subcommittee and vice-chair of the Committee on 
District of Columbia of the Government Reform and Oversight 
Committee and a friend and a champion of women's rights and 
human rights in every other respect.
    It is a pleasure to welcome you, Congresswoman Morella.

      STATEMENT OF THE HONORABLE CONSTANCE A. MORELLA, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF MARYLAND

    Ms. Morella. Thank you, Mr. Chairman and Members of the 
Committee. I am sorry I was not here to hear the statements of 
my distinguished colleagues. I know in part what they have said 
and certainly associate myself with their comments.
    I thank you very much for the opportunity to testify before 
the Committee today, and I am especially pleased to be here 
with my colleagues to talk about actions that we can take on 
foreign policy to reverse discrimination against women around 
the world, and the affirmative steps that we can take to help 
the world's women and their daughters to overcome the effects 
of discrimination.
    The Committee and Congress have enacted a number of 
initiatives in the last decade or two in recognition of the 
problems that women and girls face. They include authorization 
and funding for programs dealing with micro credit, family 
planning, rape victims, domestic abuse, and treatment of 
torture survivors, just to name a few. I am also pleased by the 
recent attention which has been given to the problem of sex 
trafficking, and I am sure that the Committee will continue to 
investigate the problem and the best way we can work to bring 
about its demise.
    Mr. Chairman, the importance of women's roles and 
development and potentially differential impact of USAID 
policies and programs on women and men, because of gender roles 
and activities, has been recognized for more than 30 years. 
Particularly in the last decade, there has been a realization 
of the centrality of the status of women in developing and 
implementing sustainable development policies and programs.
    This week, the HIV and AIDS pandemic was declared a 
national security threat. In Africa, whole regions are being 
ravaged. Families lose some of what economic power they had 
when a parent dies and the rest when a second parent, having 
been infected by the first, dies. Children drop out of school 
to replace their parents' income, or to care for them while 
they are ill, and then are orphaned.
    Extrapolate this scenario to account for tens of millions 
of people populating some two dozen countries over the next 10 
or 20 years. Inadequate social safety nets are overwhelming 
governments that are unable to cope. People become politically 
alienated. Economies contract. Nations destabilize.
    HIV and AIDS is not an African problem alone. Disease 
spreads. It is everyone's problem. Infection rates are rising 
at alarming rates in Asia, the Caribbean and Latin America. In 
addition to a number of praiseworthy proposals which had been 
made to address the African crisis, one of the best tools we 
have to fight the spread of HIV and AIDS is to assure that 
women and men have access to quality reproductive health 
information and facilities.
    We have not invested sufficient resources in these programs 
in the last several years. Regardless of the restrictions which 
may or may not be attached, we need to reverse the trend. 
Meeting the President's requested funding level for family 
planning programs for the coming year would be a good start.
    I was honored to be part of a special order on global HIV 
and AIDS last evening that was led by Ms. Lee, a Member of this 
Committee, and I very much valued the fact that we had an 
opportunity to promote awareness with the public.
    Disease spreads. Congressman Brown and I have introduced 
legislation to address one of the fastest growing killers, 
tuberculosis. TB kills 2,000,000 people every year. That is a 
person every 15 seconds. Globally, TB is the biggest killer of 
young women. The World Health Organization estimates that one-
third of the world's people are infected with the bacteria that 
causes tuberculosis, and there are 8,000,000 new cases every 
year. It is spreading because of inadequate treatment, and it 
knows no national borders.
    In my own district, so-called affluent Montgomery County, 
Maryland, earlier this year a woman had to be forcibly removed 
from her apartment by government health personnel because she 
refused to be treated.
    There is a highly effective, inexpensive treatment for 
tuberculosis known as directly observed treatment short course 
called DOTS, the acronym. Under DOTS, health workers directly 
monitor patients with tuberculosis for the purpose of insuring 
that they take their full course of medicine, and yet fewer 
than one in five of those who are ill with tuberculosis are 
receiving DOTS treatment, and, according to World Bank 
estimates, DOTS treatment is one of the most cost effective 
health interventions available. $20 to $100 will save a life, 
and it can produce cure rates as high as 95 percent even in the 
poorest countries.
    Mr. Chairman, it is a universal truth that education is key 
to economic well being, but in too many countries access to 
education is limited. Girls particularly are disadvantaged. 
UNICEF reports that 150,000,000 children do not attend school, 
and two-thirds of them are girls. Those girls who do attend 
drop out in higher numbers than boys. So investing in girls' 
education is one of the most effective means of promoting 
economic growth and poverty reductions. We know from studies 
that additional education corresponds with reduced family size, 
reduced rates of infant and maternal mortality, healthier and 
better nourished families. These trends are continued in 
following generations.
    Our assistance programs should be designed to insure equity 
in education to meet the needs of girls. Governments should 
promote policies to encourage them to enroll and stay in school 
and to recruit more female teachers. Parents and community 
members must be mobilized to support and promote girls' 
education and participate in decisionmaking and oversight 
regarding schools in their communities.
    I know I am preaching to the choir here as I go on with 
education and tuberculosis and HIV and AIDS, but you are 
awfully nice to listen.
    Mr. Campbell. It is our privilege, Congresswoman Morella. 
Please continue.
    Ms. Morella. Although great attention has been given to the 
role of women in sustainable development programs, gender 
analysis of the impact of our programs continues to lag.
    USAID's progress in integrating gender analysis through its 
assistance programs has been hindered by a lack of structures 
and mechanisms to insure accountability. AID is addressing this 
with its adoption of its gender action plan meant to built 
agency wide commitment, capacity and incentives for integrating 
gender analysis into its policies, programs and projects.
    Later this month, the AID Advisory Committee on Voluntary 
Foreign Assistance will file its report assessing the 
implementation of the plan. I think it should include reporting 
on integration of gender analysis and the impact of USAID 
policies, programs and projects in its annual presentation to 
Congress, and I think AID missions should be held to account 
for their efforts to integrate gender analysis into programs 
and explain their inability to do so if they cannot.
    Mr. Chairman and Members of the Committee, the subjects 
which I have briefly mentioned--education, health, gender based 
analysis of the effects of the assistance programs--are going 
to be addressed in comprehensive legislation that I am planning 
to introduce, and I hope all of you will become cosponsors of 
it.
    In collaboration with Congressman Porter, Congresswoman 
Lowey, and Congresswoman Kilpatrick, we have been working with 
a consortium of non-governmental organizations led by Women's 
EDGE to develop the Global Actions and Investments for New 
Success for Women and Girls Act.
    The GAINS Act, will address U.S. policy, education, health, 
micro credit, refugees, trafficking, as well as other subjects. 
I look forward to working with this Committee on that 
legislation. I hope you will give it serious consideration.
    I had a comment in here for Mr. Gilman, but since he is not 
here he can read my testimony and know that I said good things 
about him and that this might well be the last hearing that I 
would appear before that he would be chairing.
    In closing, I wanted to thank you for calling the hearing 
and allowing me to testify before this very distinguished 
Committee. I thank you very much.
    [The prepared statement of Representative Morella appears 
in the appendix.]
    Mr. Campbell. Thank you, Congresswoman. Without objection, 
your full statement, including the laudatory comments of 
Chairman Gilman, will be included in the record.
    It is traditional not to put any Members to questions 
unless they would wish it. I will just use this one moment to 
say thanks to Congresswoman Maloney for your kind words about 
me, but, as I recall, it was you and me together, and it could 
not have been possible without both of us working for funding 
international family planning. The importance of that is that 
you and I share awareness of equality, and I commend you every 
bit as much.
    What I would like to do, since I was not able to make an 
opening statement, is just to state the following, and then if 
you have a comment or disagreement that is fine. It will only 
take a minute, after which I would yield to my colleagues.
    As to self-executing provisions of the treaty, as I 
understand it there are none. So, Mr. Smith or other Members of 
our Committee who might be worried about an intrusion on 
sovereign United States rights should be reassured that the 
treaty itself does not include self-executing provisions. 
Rather, it is a call to arms, if you will, or a call to action, 
but the action has to be done by American constitutional 
processes.
    Second, there is some value, nevertheless. I do not want to 
say that this is toothless. There is some tremendous value, 
particularly under the alien tort statute, a subject I used to 
teach, but let me just take it for a second and say this.
    An alien can sue in the United States courts for tort 
committed in violation of the law of nations. Victims of gender 
mutilation can, in my view, take advantage of this, but a court 
might say that the United States recognition of this abuse as 
an international human rights violation is in doubt since the 
United States had not ratified CEDAW. The ratification of 
CEDAW, in other words, provides a very strong premise that 
American courts will use to allow a suit under the alien tort 
statute for violations of women's rights.
    Those two observations I wanted to put on the record, and 
perhaps Ms. Loar will be able to speak to them in her 
testimony.
    I would yield to any of the panelists if you would wish to 
comment on that.
    If not, I will go to the next speaker, who is Mr. Hastings. 
Mr. Hastings, do you have any questions for our colleagues?
    Mr. Hastings. I do, Mr. Chairman, and thank you. I also 
would like to add a comment.
    When Ms. Morella, my good friend and a good friend to all 
of us, joined the panel, at some point during the course of 
your testimony, Ms. Morella, you commented to the fact that you 
were preaching to the choir. It is a very small choir here, and 
I think that is one of the problems.
    Very occasionally, those of us, particularly men who are 
avant-garde about women's issues, do not have the ear of some 
of our colleagues that we work with on a day to day basis, and 
I do not say that disparagingly, but with an abundance of 
understanding that we need to develop strategies to be sure to 
include significant numbers of persons who can be influential 
in the objectives that we are trying to achieve.
    Toward that end, the legislation that you and your 
colleagues have been working on, I beg of you at the earliest 
time you accept cosponsors that you include me, and then at 
least I know I will be on record early on as matters go.
    Additionally, I would like to say that I think all of us 
here who are concerned know that a part of the problem is the 
now chair of the Senate Foreign Relations Committee. I do not 
know Senator Helms. I have never met him, and I only know his 
reputation through what I hear as I travel about the world.
    I do not know that he knows, and I believe he does need to 
know, that there are those who feel that he has pretty much 
individually hijacked foreign relations in the United States of 
America. Toward that end, when Senator Bob Graham and myself 
introduced legislation dealing with the convention on the child 
and the fact that it had not been ratified--I will use media 
speak--a high ranking Senate source said to me that no treaties 
were going to be ratified because Senator Helms did not choose 
to do so.
    We love our government, and we have great reason to have 
better understanding from the Senator. If there is to be a 
strategy developed, it should be to pressure him to understand 
that when 163 countries have ratified a treaty like CEDAW or we 
find ourselves in a position where countries are moving forward 
on matters as it pertains to discrimination against women, and 
yet we are the alleged champions and have not done the simple 
act of ratifying a treaty with the clarifications. I might add 
I do not hear, and I guess my question to you all is I do not 
hear any objection now.
    I heard from both Ms. Woolsey's and Ms. Morella's testimony 
that the clarifications or the reservations that were offered 
by Senator Helms would go right along with any new visit that 
the Senate Foreign Relations Committee might have and that you 
all at this point are not raising objections to some of the 
reservations. Am I correct about that?
    Ms. Woolsey. You are absolutely correct, and the language 
in 1994 from the Senate Foreign Relations Committee acted on 
the matter. There were reservations that would state clearly 
that CEDAW does not create a right to abortions and that 
abortions should not be promoted as a method of family 
planning.
    Mr. Hastings. Right.
    Ms. Woolsey. It was clear in the language.
    Mr. Hastings. Well, I for the life of me then do not 
understand what other reservations exist, and if they are out 
there they ought to be known.
    Let me ask you, and this will be my final question, Mr. 
Chairman, since many of the countries that have ratified CEDAW 
continue to have very poor records in terms of discrimination 
against women.
    I heard lengthy testimony about Iran and some of their 
actions. I know that in Iraq and Burma, just as two examples, 
that women are discriminated against, as well as many countries 
in Africa. What can the United States do, or do we have any 
leverage at this point, to make CEDAW a more effective tool for 
achieving concrete results in ending discrimination against 
women around the world?
    Ms. Woolsey. Well, sir, we can do nothing if we do not 
ratify it in our own country. That makes us voiceless. If we 
have a seat at the table, then we can advise. We can recommend. 
We can weigh in with our statements, but when we have not 
ratified the treaty then we are really voiceless in this 
regard.
    Mr. Hastings. Thank you, Mr. Chairman.
    Ms. Morella. May I make a comment, too?
    Mr. Hastings. Yes, please. Thanks, Connie.
    Ms. Morella. I was at the U.N. Conference on Environment in 
Rio, Population and Development in Cairo, and Women in Beijing. 
All of them dealt with empowering women because this would 
empower societies, whether it was through education, removing 
violence from one's life, health access, which deals with 
microenterprise, which deals with enhancing our environment. It 
all ties in.
    I do not know why we have had such reticence about signing 
on to these U.N. conventions when we are leaders with regard to 
these conferences. I would submit that we should continue, as 
Representative Woolsey has, to try to get ratification of it, 
but at the same time we have to look at these other programs 
that are doing that very thing, eliminating discrimination 
against women.
    Ms. Maloney. To respond to the gentleman's question of how 
we can put more teeth, obviously passing CEDAW is an important 
symbolic statement. As was pointed out, Helms' understanding 
which stated that nothing in CEDAW creates a right to abortion 
was literally passed out of the Senate, and still the Senate 
did not ratify it.
    Likewise with my colleague, Ms. Morella, we were delegates 
to the world conference in Beijing, China, 5 years ago where 
the report from the United States delegation called for the 
ratification of CEDAW, and in just 33 days we will be meeting 
in New York for the 5-year review of Beijing. You will have at 
least 180 countries there. It will be very embarrassing if the 
report from the United States states that we still have not met 
up to the commitment that we made in Beijing, China, as a 
delegation to ratify CEDAW.
    The funding for USAID and UNFPA helps countries around the 
world combat AIDS, female genital mutilation, education and 
health empowerment, and one of the bills that we have put 
forward is called Back to the Future. Mr. Campbell has helped 
me with that, as well as Ms. Lee and Ms. Morella and Ms. 
Woolsey, and it calls for funding at 1995 levels; not 1999 
levels, but what we funded UNFPA and USAID back in 1995, to go 
out and empower women and educate communities about the 
importance of educating women.
    When you educate women, you educate the village, the family 
and the stability of the country, the knowledge not only on 
family planning, but AIDS prevention, health care education, so 
funding these two very vital programs that the United States 
literally created and led for many years, if we can continue to 
go back to the future with 1995 levels of funding for USAID and 
UNFPA.
    Mr. Hastings. Mr. Chairman, if you would just indulge me 
just one moment?
    Mr. Campbell. Of course. The gentleman has additional time.
    Mr. Hastings. Chris Smith, one of our colleagues from New 
Jersey that has been very active on a number of subjects 
pertaining to women, one being the trafficking of women. When 
Congressman Smith and I and others were in attendance at the 
Organization for Security and Cooperation in Europe last year, 
he introduced a resolution on behalf of the United States 
delegation, of which I was a participant and signatory to. We 
met not resistance, but guffaws almost from our colleagues in 
the United Kingdom and Canada asking us where were we on the 
ratification of this treaty, and so it hampers our interfacing 
with other organizations, that organization being one, that is 
a 54 member country organization, all of whom have ratified 
CEDAW.
    Thank you, Mr. Chairman.
    Mr. Campbell. Thank you, Congressman Hastings.
    The Congressman's comment reminds me to be sure that I am a 
cosponsor of your resolutions. Would you kindly see that my 
name is included if it has not been already?
    Ms. Woolsey. Thank you. I believe you are. Certainly Mr. 
Hastings is. We would love to put you on it.
    Mr. Campbell. Very well.
    Mr. Chabot is next--we alternate between parties--if you 
would like. Otherwise we will proceed.
    Thank you. We will proceed then. I apologize to Mr. 
Delahunt. I understand the rule is in terms of the order you 
show up rather than seniority, so I apologize. I yield now to 
Mr. Delahunt.
    Mr. Delahunt. No need to apologize, Mr. Chairman. In fact, 
Mr. Hastings absolutely I think echoed my own concerns.
    I will be very brief other than simply to say to my 
colleagues a job well done. Thank you for your perseverance, 
your persistence. I agree. It is an embarrassment. It is indeed 
unfortunate.
    I welcome the observation by the learned constitutional 
scholar, our pro tem chairman, Mr. Campbell, relative to the 
self-executing provisions because after listening to Mr. Smith 
I was concerned about Mothers Day, but it would appear that 
Mothers Day would survive ratification of CEDAW.
    I really think that you all got to the quick because I 
suspect that the real concern is the abortion issue, and you 
have been very clear and unequivocal that the reservation by 
Senator Helms would be retained, and I do not see any rational 
basis for why we have not ratified it.
    With that, I will yield back.
    Mr. Campbell. Congresswoman Lee of Oakland.
    Ms. Lee. Thank you very much. Let me just find out from 
you, Congresswoman Woolsey. In terms of women's international 
organizations and the human rights organizations, what has been 
the general feedback from these groups with regard to the lack 
of United States ratification of the treaty?
    Ms. Woolsey. Over 100 women's and church groups support 
ratification of CEDAW. They know it is the right thing for the 
United States to have a seat at the table. Congresswoman, as I 
told you, the Church Women United and the United Methodist 
Women brought 10,000 handwritten letters to me, and we made 
sure they got to individual Senators, saying thank you to the 
Senators who had signed on to ratify CEDAW and encouraging 
those who were holding back. That is 10,000 handwritten. They 
could get more.
    Ms. Lee. Short of changing chairs with the Senate Foreign 
Relations Committee, which we know is not going to happen, what 
do we do next? I mean, I think this is a major step in the 
right direction, but how do we move forward?
    Ms. Woolsey. Well, the next step, of course, will be to 
have this Committee mark up House Resolution 107, get it to the 
House Floor, and then the House can vote on it. We have 112 
bipartisan cosponsors now that we have Mr. Campbell on our 
legislation. We will pass it out of the House which urges the 
Senate to ratify CEDAW. It has to be ratified in the Senate and 
the Senate must take action.
    You know, it is all right that Senator Helms disagrees with 
CEDAW. It is all right that Congressman Smith has 
disagreements, but, you know, this is a democracy, and Senator 
Helms must know that he has to let the other 99 Senators weigh 
in and vote on whether or not they support it.
    This is not a country with a one person democracy. We have 
to insist that he see it that way. He can vote any way he 
wants, but he has no right not to let the rest of the Senate 
weigh in.
    If we would start here, that would help. We will let the 
rest----
    Ms. Maloney. Passing it out of the House would be a huge 
statement.
    Ms. Woolsey. Right.
    Ms. Maloney. A huge statement.
    Ms. Woolsey. Yes. If we pass it out of the House, it will 
be a national statement that will have to be heard.
    Thank you for asking.
    Ms. Lee. Thank you. Let me just comment with regard to the 
work that all of you have done in terms of raising this to the 
public's attention. I found after last year's series of 
activities, many women in this country were shocked to find 
that we had not ratified it. For some reason, the word had not 
gone out, but I think now we have a prime opportunity thanks to 
all of you and what we are doing to engage women. The 10,000 
signatures, as well as what has been going on throughout the 
country now, I think gives us a real unique opportunity to move 
this forward.
    Just on behalf of my constituents I want to say thank you 
very much for everything.
    Ms. Woolsey. And thank you for your support.
    Mr. Campbell. Thank you, Congresswoman Lee.
    Ms. Woolsey. Thank you.
    Mr. Campbell. Mr. Pomeroy.
    Mr. Pomeroy. I want to thank the panel. This is really an 
issue that I think deserves the light of day to be cast clearly 
and squarely upon it. We are in an untenable position--not 
moving this forward.
    Senator Helms, in blocking Committee action on this treaty, 
is not reflecting his own party. He is not reflecting the U.S. 
Senate and certainly not reflecting the American people, so I 
really commend you for your participation in this hearing 
today.
    I hope I am on the resolution. Like our Chairman, if I am 
not, please put me on. I would want to be.
    I would like to ask your thoughts on the relationship of 
this treaty to the education of girls in Third World countries. 
I have become convinced that that issue, education of girls in 
Third World countries, is the single most important thing that 
we can do as part of our foreign policy to address systemic 
difficulties resulting in health epidemics, resulting in war, 
resulting in dysfunctional economies.
    It really is at the heart of so very much that is wrong 
that we try to bandaid our way over with these kind of ad hoc, 
knee jerk responses, but we are not getting at the crux of it, 
which is the education of girls. What is the relationship 
between this treaty and that issue, any of you?
    Ms. Woolsey. Well, Mr. Pomeroy, education is one of the 
major tenets of CEDAW. Equal education, educating girls and 
young women.
    Mr. Pomeroy. Right.
    Ms. Woolsey  Education, equality in work, but it starts 
with education, and that is one of the major tenets of CEDAW.
    Ms. Morella. In my statement, which did not truly address 
CEDAW, but addressed discrimination against women, a major part 
of it is education. Two-thirds of those people in developing 
countries that are not educated are women, are females, and 
when you can see how they are heads of households, how 
important that is, and mention was made that in those countries 
when you educate a woman you educate a family. That is 
important in terms of their understanding of reproductive 
health, of micro enterprise endeavors. I will have legislation 
on it, but indeed it links up.
    I also think this is very important what Congresswoman 
Woolsey has been tenacious about and the family planning that 
Congresswoman Maloney has been a leader on, but I think it is 
important that we match our rhetoric with the actions, and that 
is putting the money significantly into AID, directing it 
toward education and showing by example that we are more than 
words. I believe that very strongly.
    Ms. Maloney. Advancing the status of women is not only the 
right thing to do, but it is the single, most effective thing 
we can do to address the multiple foreign policy goals at one 
time.
    I appreciate your comments, Mr. Pomeroy.
    Mr. Pomeroy. I want to emphasize this is not just matters 
of principle discussed at women's conferences--international 
women's conferences. These are fundamentals of economics agreed 
to by male economists in boring finance seminars. I mean, it is 
just absolutely true. It is common sense. It needs to be moved 
forward. I really do commend you for your work.
    There are women's issues that do not involve abortion, and 
I think that sometimes we get so incredibly sensitive to the 
abortion dimension of things that we impose it on all things 
about women. Of course, there is no joinder, and we do a 
terrible disservice to public policy when we cannot look at 
issues rationally that are squarely before us, so you 
leadership on this is so very important. Thank you.
    Mr. Campbell. Thank you, Mr. Pomeroy.
    We are at the end of the Members' panel. If you wish to say 
something else, the Chair certainly is willing to.
    Not hearing anything further, thank you, Congresswoman 
Woolsey, Congresswoman Maloney, Congresswoman Morella.
    Ms. Morella. Mr. Chairman, you are a champ.
    Mr. Campbell. Congresswoman Morella, you have what it 
takes.
    That is a bit of an inside joke as to what you say to a 
Member of Congress when you forget their first name. You say 
hi, champ, and then the other person says you have what it 
takes. I now have explained the inside joke.
    Thank you very much. Now it is my distinct privilege to 
introduce Theresa Loar, our next and principal witness. Ms. 
Theresa Loar was appointed by President Clinton as senior 
coordinator for international women's issues at the Department 
of State. She was given that appointment 4 years ago in 1996.
    She also serves as director of the President's Interagency 
Council on Women. She previously served as a State Department 
official in Mexico, Korea and various bureaus of the Department 
of State.
    Ms. Loar, your testimony will be submitted in the record in 
full. I appreciate the fact that you took the time and trouble 
to prepare 12 pages, but, given that, try instead of--well, you 
know what I mean. If you could summarize it?
    On a personal note, I would like to say something 
interesting that maybe you did not know. In 1981, Ronald 
Reagan, President Reagan, established an interagency task force 
on women chaired by Elizabeth Dole, I think you have that in 
your line of succession. I was the only male member of that 
task force.
    Ms. Loar, you are welcome.

    STATEMENT OF THE HONORABLE THERESA LOAR, DIRECTOR, THE 
PRESIDENT'S INTERAGENCY COUNCIL ON WOMEN AND SENIOR COORDINATOR 
   FOR INTERNATIONAL WOMEN'S ISSUES, U.S. DEPARTMENT OF STATE

    Ms. Loar. Thank you, Mr. Chairman. It sounds like you got 
all the training you need for this hearing.
    I want to thank you, Mr. Chairman, for the opportunity to 
testify before your Committee on international women's issues. 
I would like to commend the Chairman and this Committee for 
focusing on women, one of the most powerful and as yet under 
utilized forces for change and progress around the world.
    I will make an abbreviated statement and request that my 
full testimony be submitted into the record.
    As I begin my testimony, I would like to say what an honor 
it is to follow such strong congressional champions for women, 
Congresswomen Maloney, Woolsey and Morella. They really have 
made a mark not just here in the United States, but around the 
world.
    As I testify today on support for women, I am fortunate to 
have with me visiting from New Jersey my No. 1 supporter, a 
woman who raised five daughters, one of the great women of the 
world, my mother, Ann Loar. I am very glad to have my mother 
here with me today.
    Mr. Campbell. Ms. Loar, you are most welcome. If you would 
stand up? I think the Committee Members would like to recognize 
you.
    [Applause.]
    Ms. Loar. Thank you, Mr. Chairman.
    Secretary Albright has mandated that the advancement of 
women's human rights and the advancement of women be put into 
the mainstream of U.S. foreign policy, and under extraordinary 
leadership we have made great strides in carrying out this 
mandate.
    The work we are doing to support women flows out of the 
U.N. Conference on Women held in Beijing, China, that so many 
of the Members of Congress who spoke earlier referred to. This 
gathering of delegates from 189 countries and 50,000 NGO's was 
a hallmark event that had profound effects on how governments, 
including our own, look at issues affecting women and their 
families.
    Those of us working to coordinate the U.S. Government 
engagement in this conference could not have foreseen the 
impact this event would have. Our U.S. delegation included 
three distinguished Members of Congress who were here at the 
hearing today, Representatives Maloney, Morella and Smith.
    Our First Lady, Hilary Rodham Clinton, who led the U.S. 
delegation in Beijing, sent out a clarion call to the 
international community to recognize that human rights are 
women's rights and women's rights are human rights.
    My testimony today will report on a powerful partnership 
working to improve the lives of women and girls. This 
partnership includes our government, NGO's here and around the 
world, other governments, international organizations and 
Members of this Congress.
    The focus is on fighting trafficking and supporting women 
democracy builders. I will also reiterate our support for the 
women's human rights treaty, the United Nations convention on 
the elimination of all forms of discrimination against women. I 
will also look ahead to Women 2000, the fifth year review of 
the Beijing women's conference.
    My position as senior coordinator for international women's 
issues at the State Department was created through the efforts 
of Congress in 1994. President Clinton appointed me to this 
position in 1996, and since that time we have made great 
progress in institutionalizing issues affecting the lives of 
women and the development, formulation and implementation of 
U.S. foreign policy.
    I have two key areas of focus, expanding women's political 
participation and eliminating violence against women. In my 
position as director of the President's Interagency Council on 
Women, I am proud to represent that the council has served as a 
model for other governments committed to progress for women. 
Representatives of the governments of India, South Korea and 
New Zealand have come to hear how a government task force like 
the council can be a catalyst for policy formation to support 
women's advancement.
    Another key element in my work is the strong partnership 
with a broad representation of the NGO community. This is 
something that the State Department is starting to do more and 
more, but it is not something traditionally the State 
Department has done over the years.
    My office holds the largest ongoing public briefings with 
the NGO community held at the Department of State. For the past 
3 years, we have held open and transparent public quarterly 
briefings attended by some 300 to 400 individuals. This strong 
collaboration with NGO strengthens and informs my work. This 
inside/outside strategy has been an effective way to develop 
policy.
    One of the key issues in the area of violence against women 
that has emerged both domestically and internationally in the 
last few years is the trafficking and the women and children. 
Among the most horrific abuses that women face around the world 
is the buying and selling of humans for elicit purposes.
    Trafficking is one of the fastest growing criminal 
enterprises today behind drug trafficking and arms trafficking. 
Although it is sometimes characterized as a women's issue, it 
involves not only women, but also children and men. It is first 
and foremost a human rights issue, but is also a socio-economic 
issue, a public health issue and one organized criminal 
activity.
    I have met with trafficking victims and organizations 
working in the field to help these women and their families, 
and I have heard firsthand of the devastation suffered by young 
women, sometimes merely only girls, who are deprived of their 
childhood when traffickers sold them into slavery. These 
encounters have deepened my commitment to marshal the full 
breadth of government resources available to confront and stop 
trafficking, which now affects over 1,000,000 women and 
children each year.
    One of the key issues behind trafficking is the low 
economic status of women and the low status of girls around the 
world. Congressman Pomeroy talked about his commitment to 
girls' education. I would echo that and talk about the 
importance of educating girls and valuing girls so that they 
are not pulled out of school and their childhoods are not cut 
short.
    The President, the Secretary of State and the Attorney 
General have all shown tremendous commitment to this serious 
human rights issue. First Lady Hilary Rodham Clinton has worked 
tirelessly to bring this issue out of the shadow and onto the 
world stage. As a result of this leadership, the full machinery 
of the Department of State and several other government 
agencies is working on this issue. We have several multi-
lateral initiatives underway with the United Nations, the 
European Union and OSCE. Some of the anti-trafficking efforts 
of OSCE have benefited from the strong support of Congressman 
Smith.
    Most recently, the United States and the Philippine 
government co-hosted a meeting in the Philippines called the 
Asian regional initiative to combat the trafficking of women 
and children. This involved over 20 Asian and Pacific nations 
who are working together for the first time. Our embassies in 
the field are already reporting new levels of cooperation among 
the governments of Thailand and Cambodia, for example.
    Congress is essential to our efforts on trafficking. 
Passage of an effective bill that provides severe punishment 
for traffickers and protection for victims from medical 
treatment to shelters to the opportunity to become legal 
residents is crucial. However, this bill must not, as some have 
proposed, inflict mandatory economic sanctions on countries 
that may seem to be doing too little to combat trafficking. 
This could require the United States to impose sanctions on as 
many as two-thirds of the world's governments. Moreover, such a 
heavy handed response would cripple NGO's work in this area.
    Internationally, we need to achieve consensus and rapid 
ratification by states working on the U.N. trafficking protocol 
being negotiated in Vienna. We look forward to continue working 
with Congress.
    My other key area of focus is promoting women's political 
participation so that as the time that we live in now offers us 
great opportunities for democracy to take hold. Our key program 
for that effort is the Vital Voices Women in Democracy 
initiative. This is an ongoing global initiative that 
implements Secretary Albright's mandate to promote the 
advancement of women as a U.S. foreign policy objective. It has 
benefited from the strong support of the First Lady.
    At some conferences we have announced U.S. Government 
commitments. For example, in Vienna we announced $3 million to 
fight trafficking and violence. We have now surpassed $10 
million in funding for that issue in that region. Vital Voices 
raises the voices of emerging women leaders from around the 
world who are forging the way to democracy.
    Moving ahead to Women 2000, Beijing plus five--in 
September, 1995, the United States joined 188 other governments 
at the United Nations. The United Nations joins 180 other 
governments in Beijing for the significant turning point on how 
the world looked at the issues affecting women and their 
families. The document that came out of that U.N. conference 
was a very strong policy statement.
    In June, 2000, looking ahead, the United States will join 
most of the other nations of the world at a special session of 
the United Nations General Assembly in New York. The purpose is 
to appraise and assess the progress it made in advancing the 
status of women.
    To hold the U.S. Government accountable for Beijing 
followup, the President's council has put together a resource 
document, a reference tool called The 2000 Edition of America's 
Commitment. This is a 5-year review of U.S. Government 
programs. This document highlights U.S. efforts measured 
against the Beijing document, The Platform for Action. I have 
brought along copies of the book today for Members of the 
Committee, and we are mailing that out to NGO's and sharing it 
with other governments around the world.
    The Beijing conference has unleashed changes for the better 
for women everywhere. In the past 5 years, I have had an 
opportunity to meet with women from every continent who 
recounted with pride how they are achieving progress in their 
country, spurred on by the U.N. women's conference.
    There are now more laws on the books against domestic 
violence, new violence protection programs in place and legal 
aid centers from Sri Lanka to Bulgaria. Women have greater 
access to micro credit. In Rwanda, the government is revising 
discriminatory laws in the area of inheritance rights, which is 
so important to the survivors of the Rwanda genocide. A new 
constitution in Venezuela allows women for the first time to 
transfer citizenship to their foreign born spouses.
    Mr. Chairman, I turn now to the women's international bill 
of rights, as Congresswoman Woolsey calls it, the convention to 
end all forms of discrimination against women. The 
Administration feels strongly that CEDAW must be ratified. Its 
ratification is an administration priority. The President, the 
First Lady and the Secretary of State have repeatedly called 
for its ratification.
    We have worked closely with NGO's in their quest for 
ratification of this treaty. I would like to note the tireless 
efforts of Kit Cosby, Pat Rengel and their working group on the 
ratification of CEDAW, as well as Billy Heller of California 
and the National Committee for Ratification of CEDAW. I 
understand that Kit and Pat are here today, and we thank them 
for their guidance and support.
    These groups should be commended for their efforts. 
American citizens have been working for the past 20 years on 
this issue. At least 10 states have endorsed ratification of 
CEDAW in their own state legislatures.
    I would also like to thank the 33 cosponsors who 
reintroduced Senate Resolution 279 in support of CEDAW and, of 
course, the Members of the House, some of whom have come 
forward today, who have been supportive of Congresswoman 
Woolsey's legislative efforts on behalf of CEDAW.
    Some say that only radical feminists support CEDAW. This is 
not true. Support comes from organizations and citizens across 
the broad spectrum of our society. The Gray Panthers, AARP, the 
National Coalition of American Nuns, the National Council of 
Negro Women, the American Bar Association all have endorsed 
CEDAW. The list goes on and on.
    CEDAW removes obstacles to women's full enjoyment of their 
rights. It does not create an international right to abortion. 
Rather, it seeks to insure equal access for men and women to 
health care services. It does not encroach on the principle of 
federalism or violate U.S. sovereignty. Rather, it reinforces 
U.S. commitment to equality and human rights.
    The United States is one of the world's leading advocates 
for human rights and fundamental freedoms. Ratification would 
strengthen our global efforts to advance the status of women.
    I would like to talk briefly about the importance family 
planning plays in the lives of women around the world. One 
hundred and fifty million women in the developing world want to 
space or limit their child bearing, but have no access to 
family planning. Family planning saves lives, protects women's 
health, promotes healthy families and prevents abortion. Real 
world evidence in places like Russia and eastern Europe shows 
that family planning can do just that.
    As we look ahead to the fifth year review of Beijing, one 
of the most extraordinary changes we have seen around the world 
is the willingness of governments to step forward and to stand 
up for women's human rights. I started my position as senior 
coordinator for international women's issues just a few days 
after the Taliban moved into Kabul and Afghanistan and shocked 
the world with their regressive restrictions on women.
    Sadly, these restrictions remain today, but the promotion 
of human rights, particularly the human rights of women and 
girls, is among our highest priorities in Afghanistan. The 
international community must remain steadfast and united in its 
resolve to seek wider rights and opportunities for Afghan women 
and girls. The United States will not move away from this 
agenda.
    The Clinton Administration has an unprecedented record in 
achieving progress for women, but there is still work to be 
done. There is a momentum now from villages to towns and 
countries around the world. The commitment women and men 
everywhere have shown to improve the lives of women, girls and 
their families will continue into the twenty-first century.
    We thank the Members of Congress who work with us on this 
agenda for lasting change and progress. Thank you.
    [The prepared statement of Ms. Loar appears in the 
appendix.]
    Mr. Rohrabacher [presiding]. Thank you very much. I am 
Congressman Dana Rohrabacher. We have had a change at the helm 
here.
    Ms. Loar, I will just take advantage of the fact that I am 
now the Chair to ask a few questions of my own. I could not 
help but notice that you were, of course, strongly advocating 
the CEDAW. Is that how it is pronounced?
    Ms. Loar. Yes.
    Mr. Rohrabacher. The CEDAW conference or proposal, and then 
you were focusing on Congress' inaction. To what then do you 
ascribe the failure of the Clinton Administration to obtain the 
ratification of CEDAW in the 2 years, 1993 and 1994, when 
President Clinton was President, but the Democratic party had 
control of both houses of Congress?
    Ms. Loar. Mr. Chairman, I would say that the consensus in 
support for women's human rights has been one that has been 
growing and one that has increased, and I think our----
    Mr. Rohrabacher. The President did not have a commitment at 
the beginning of his Administration?
    Ms. Loar. Oh, I think he had. I think he came into office 
with that commitment. I think we have seen that commitment 
growing and evidenced in many strong ways, and that is why we 
are continuing to fight for passage of CEDAW.
    Mr. Rohrabacher. I do not think that quite answered my 
question. Why did he not do it in the first 2 years----
    Ms. Loar. Well, actually the President did.
    Mr. Rohrabacher [continuing]. When he had all the power to 
do it?
    Ms. Loar. President Clinton did send the treaty. President 
Carter some 20 years ago signed the treaty and did send it to 
the Senate for ratification.
    Mr. Rohrabacher. Yes.
    Ms. Loar. We made very clear our efforts to endorse the 
purpose of CEDAW. We did send it up to the Senate for 
ratification. We worked very hard to work out the reservations 
so that those areas where there were some perhaps 
misrepresentations or misunderstandings were clarified. We have 
been very clear in pushing this.
    Mr. Rohrabacher. So this was in that 2-year period, 1993 
and 1994, that the Administration did that?
    Ms. Loar. These efforts have been going on for some time. 
It was sent to the Senate in 1994.
    Mr. Rohrabacher. It was sent to the Senate in 1994. When in 
1994 was it sent?
    Ms. Loar. I do not know the exact date. I would probably 
say in the summer, perhaps June or July.
    Mr. Rohrabacher. So in the final months of those first 2 
years when you had control of both houses it was sent to the 
Senate. Was there any agreement made by the Democratically 
controlled Senate to bring this to a vote?
    Ms. Loar. I can say that there was broad support for CEDAW 
when it was first brought to the Senate. We know that there is 
very broad support now, and we know that the basic elements of 
CEDAW and what it represents, that agenda----
    Mr. Rohrabacher. I am not asking about right now. I am 
asking about when the Democrats controlled both houses of 
Congress and the presidency why did they did not act.
    Ms. Loar. I cannot speak to that. I can speak to right now 
the need for CEDAW and the----
    Mr. Rohrabacher. OK.
    Ms. Loar [continuing]. Interest on behalf of women around 
the world for it.
    Mr. Rohrabacher. All I would suggest is when you say that 
this Administration has such a pristine record on women's 
rights that we take into consideration when it could have done 
anything on this issue that it wanted and controlled both 
houses of Congress and the Executive Branch, it did nothing.
    You mentioned your own situation and your own recognition 
of the rights of women in Afghanistan. How long have you been 
in your job at the State Department?
    Ms. Loar. Since September 1996.
    Mr. Rohrabacher. OK. You have undoubtedly heard my demands 
over and over again for the records dealing with this 
Administration's policies toward Afghanistan. Have you 
personally tried to see that I and this Committee received a 
copy of the documents we requested in order to determine what 
the policy of this Administration toward the Taliban is?
    Ms. Loar. Mr. Chairman, I know well of your interest and 
support for the people of Afghanistan. I am not familiar with 
your request for documents. I have not----
    Mr. Rohrabacher. You are not?
    Ms. Loar. I am not aware of that, but I do know well of 
your interest and support.
    Mr. Rohrabacher. You are not familiar with that?
    Ms. Loar. I am not personally. I have not heard anything 
about that.
    Mr. Rohrabacher. Just so you will know, and I want to state 
for the record, having been in Afghanistan a number of times--I 
am probably the Congress' foremost expert on Afghanistan--I 
have charged this Administration has a covert policy of 
supporting the Taliban, and the Taliban would not be in power 
if it was not for this Administration wanting it and cutting 
deals with the Saudis and the Pakistanis to see that the 
Taliban were there.
    I have demanded, and received support from the Chairman of 
this Committee, a request for the documents that would prove or 
disprove that charge. For over 2 years, this Administration has 
done everything they could to block me from the documents and 
block this Committee from legitimate oversight.
    I will tell you right now, for someone who supposedly is 
concerned about women's rights, for you not to have waded in 
behind the scenes, calls into question your commitment whether 
it is a political commitment to this Administration or a 
commitment to the rights of women that you are talking about 
today.
    The most gross violator of women's rights in the world 
today is the Taliban government in Afghanistan, and this 
Administration's policies in regard to the Taliban have been 
disgraceful and deceitful to the American people. This 
Committee has oversight responsibility to find out what this 
Administration's policies have been, and this Administration 
has stonewalled us and blocked our ability to find out what 
policies we have had toward Afghanistan.
    To make it very clear for you, we expect people like 
yourselves, who are behind the scenes and in the Administration 
who supposedly support women's rights, to be pressuring the 
Administration to do what their public positions indicate they 
should be doing.
    Again, I would hope that in the next few months this 
Administration will finally provide the documents for the time 
period that I requested to find out what the policy of this 
Administration was toward the creation and support of the 
Taliban's control of Afghanistan.
    I would say that issue overrides many of the things that 
you have been talking about today, and I would hope that when 
you go back to the State Department that you personally 
activate yourself to see that those documents are available and 
that if you find that this Administration has been supporting 
the Taliban that you join with us, whatever party, to try to 
change that policy. It is a disgrace.
    I will be very happy to hear whatever you want to retort to 
that, and then we will let one of our colleagues speak.
    Ms. Loar. Let me say that I will carry back your request of 
the State Department. I will carry that back with me as I 
return to the State Department this afternoon.
    I would just say that the Secretary of State has been very 
direct and clear in her criticism of the Taliban for its 
treatment of women and girls. It is gratifying to know you 
share that concern. I know you have a deep, long-term interest 
in Afghanistan. Our record is very strong and very clear, and 
we are going to continue to have that record.
    Mr. Rohrabacher. The record of this Administration is not 
very strong and clear. It is deceitful, and it is false. I do 
not care if Madeleine Albright talks about human rights and 
goes over to China or we have an Administration that is kissing 
the boots of these gangsters. All the talk about human rights 
does not mean a darn thing if the Administration does not put 
any force behind it in China.
    I will tell you, her words in Afghanistan do not mean 
anything to these fascist thugs who run Afghanistan and treat 
women the way they do when we have an administration that has 
cut a back room deal with Pakistan and Saudi Arabia to support 
them and keep them in power.
    This Administration disarmed the opposition to the Taliban. 
Bill Richardson and Rick Interfurth went to CABO and then went 
to the Northern Alliance at a pivotal moment and disarmed the 
opposition to the Taliban.
    We also have an opposition right now under Commander 
Musuad. People like yourself who supposedly believe in human 
rights for women and make that your priority should be doing 
everything you can to see that this Administration not disarms 
the opposition to the Taliban, but supports Musuad and supports 
those people in Afghanistan who do not believe in this type of 
oppression, not only of women, but of everyone else.
    I will say right now I was in Afghanistan during the war. 
This oppression of women, which they say is just cultural, is 
not something that the people of Afghanistan fought for when 
they were trying to kick the Russians out. They may be 
developing Muslims, but they are not fanatics. This reflects 
the Pakistani and the Saudi brand of Islam, if you will.
    With that, I am sorry, but I do feel strongly about this 
obviously. It is not just for women's rights, but for 
everybody's rights.
    Ms. Loar. Mr. Chairman, I would agree that the restrictions 
and the human rights abuses against women in Afghanistan are 
not culturally based, and I would agree that our government's--
perhaps we do not agree about this, but my belief is that our 
government has been very strong in standing up to women of 
Afghanistan.
    We will continue to do that. I will take back your concerns 
to the State Department. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Thank you.
    Ms. Woolsey or Ms. Lee? Which one comes first?
    Ms. Lee. Thank you very much, Mr. Chairman.
    Let me go back to the treaty. I would like to find out just 
in terms of your work--and thank you for everything you have 
done and for being here today----
    Ms. Loar. Thank you.
    Ms. Lee. What does the United States face when we try to 
talk to other nations about discrimination against women? Does 
our failure to ratify CEDAW undercut our efforts actually to be 
a leader in international women's issues?
    Ms. Loar. Well, Congresswoman Lee, it is actually quite an 
embarrassment to go to U.N. conferences where the United States 
has a strong human rights record, and there will be discussions 
about institutional mechanisms, treaties, powerful documents 
that can be used to help women, and it is repeated again and 
again, whether it is at U.N. meetings or at OSCE meetings like 
Congressman Hastings referred to where there was a big effort 
to fight trafficking or whether it is in meetings supporting 
women's role in democracy. I have been in meetings in Latin 
America where there is a real focus on trying to fight violence 
against women in the home.
    Again and again we are reminded that we as a government 
have not ratified this treaty, so it is an embarrassment. It is 
a setback. Ratification of the treaty would help move us 
forward in the work we are trying to do for women's human 
rights.
    Ms. Lee. Which countries do we align ourselves with at this 
point?
    Ms. Loar. Well, it is not a very enviable coalition of 
countries that have not ratified CEDAW. It includes Iraq. It 
includes Somalia. It includes some other countries who are not 
known for their strong brand of democracy.
    All of Latin America, every single nation of Latin America, 
has ratified CEDAW, and many of them are using it to help 
improve the lives of women and girls. We are in a very 
unattractive grouping of countries and one that does not put us 
in a strong stead as a strong leader for democracy around the 
world in not ratifying CEDAW.
    Ms. Lee. As I mentioned earlier, of course, we are still 
faced here in this country with massive discrimination against 
women. Ratifying CEDAW, how would that help us in terms of 
using the treaty as a tool to help women here in America deal 
with discrimination?
    Ms. Loar. Well, our laws currently already exceed a lot of 
the standards in CEDAW, so we do not expect it to have a 
dramatic effect on the U.S. laws related to women's status.
    More than anything, we see it as a very powerful tool that 
will help us in our work internationally and as part of the 
international community supporting women's advancement.
    Ms. Lee. Let me just make a comment, Mr. Chairman, because 
I think one of the reasons that we need to move forward and 
quickly ratify CEDAW is to send a message, though, to our 
courts here in this country and to all of those with 
jurisdiction over implementing anti-discrimination policies 
which we have in place here.
    Often times I believe they are just there either for women 
who have the money and the means to mount lawsuits or they are 
there because we passed the law, but I believe in passing this 
treaty we would have at least the moral obligation to move 
forward with our anti-discrimination laws against women in this 
country, so I see this as a very necessary tool for me as an 
African-American women in America who needs these kinds of 
mechanisms on record and internationally also.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Mr. Chairman, you 
will not be surprised that Afghanistan has not ratified CEDAW.
    Mr. Rohrabacher. No pressure from the Administration 
obviously.
    Ms. Woolsey. Well, I have to tell you, speaking of the 
Administration, and this will lead me into my question with Ms. 
Loar.
    I was elected in 1992 when Bill Clinton was elected, and 
one of the first items that was a part of my agenda was the 
ratification of CEDAW. During that time Bill Clinton and the 
State Department started working with the Senate Foreign 
Relations Committee.
    Because we know that our President likes to reach out 
across party lines, he worked with the State Department and 
with Senator Helms to iron out concerns. That took up all of 
the rest of the time that it would have taken to bring it to 
the Senate Floor and get it passed. Then we lost the Majority, 
and then it was straight downhill.
    Now, I do not think this should be a partisan issue. I 
mean, this is a women's human rights issue. What I would like 
from you, Ms. Loar, because you are part of the State 
Department, what does the State Department need from us? You 
have done your part. The Secretary of State has written to the 
Senate. The President has asked the Senate to ratify. What do 
we have to do?
    Ms. Loar. We understand that there are discussions about 
the possibility of hearings to get the issue fully explored and 
to be able to have a strong basis for ratification. We know 
that the resolution that you have sponsored in gaining support 
even today here as we speak, we think resolutions of that 
nature are very helpful to give a sense to the Senate in their 
role in ratifying the treaty that there is a groundswell of 
support. We would like to see more of that.
    We know from the groups that have worked so tirelessly here 
in the United States, here in Washington and all across the 
United States that there is a lot of support at the grassroots 
for ratification of this treaty, and we think that will be 
reflected ultimately in passage of the treaty.
    Ms. Woolsey. Well, I thank you, and you can count on us to 
work with you.
    Ms. Loar. And we thank you for your leadership on that.
    Ms. Woolsey. Thank you very much.
    Mr. Chairman, when I came in here I had 111 cosponsors on 
H. Res. 107, and I am leaving with 113; 114 if you will sign on 
it.
    Mr. Rohrabacher. Congratulations. I will take a look.
    There is a question that they want me to ask for the 
record, and if you could perhaps answer in writing if you would 
like? I will just read this to you for the record, and then you 
could reply for the record as well.
    In the case of another international human rights 
convention, the International Covenant on Civil and Political 
Rights, the United Nations body, with responsibility for 
overseeing the implementation of that covenant, has ruled that 
as a matter of international law, the U.S. reservations to the 
covenant have no legal effect. This means that when the 
covenant was ratified there were reservations that were put 
into it as part of the legislation of ratification by the 
Congress, but now we have that body saying those reservations 
do not have any effect, no legal effect or no legal voice.
    Here is the question. Does the United States accept the 
validity of this ruling by that panel, and what assurances can 
you give the Committee, which oversees the implementation of 
this convention, that the elimination of discrimination against 
women, and that if there are reservations during this whole 
process, in the ratification process, that there will not be a 
similar ruling that the reservations of this convention have no 
legal force or effect?
    First of all, you can answer that in writing, or if you 
would like to answer it now that is fine.
    Ms. Loar. Mr. Chairman, with your agreement I would like to 
answer that in writing. I will take that question back with me.
    Mr. Rohrabacher. Yes. This is vitally important because it 
goes to the heart of the power of Congress to----
    Ms. Loar. Right.
    Mr. Rohrabacher [continuing]. Pass to what degree and if we 
take everything or leave everything because if all our 
reservations are declared null and void by the United Nations 
that means that it is take it or leave it time for Congress 
from now on if the policy of the Administration is to accept 
that as the policy.
    Thank you very much for being a witness, and also thank you 
for--I mean, I came in and came on very strong, and I believe 
what I believe in. I would hope that you did take my admonition 
about someone who is serious about women's rights.
    Frankly, I am shocked that you had not heard of my demand 
and these charges that I have been making for 2 years. This has 
been a struggle on my part to try to get the documentation to 
prove something that indicates that this Administration is 
involved in a heinous crime against women. As I say, I am just 
surprised that you not only have not acted upon it, but have 
not heard about it.
    I would hope that people in the Administration, like 
yourself, who are committed to human rights and are committed 
especially to women's rights will pay attention to this battle 
and struggle that I have been waging for 2 years.
    I can think of no greater threat to the rights of women in 
the world today than the acceptance of the Taliban form of 
Islam in other countries that have Islamic populations. If 
other countries which have Islamic populations start taking the 
lead from the Taliban, hundreds of millions of women will lose 
their rights and will find a dramatic decrease in their rights 
and find themselves in subjugation of the worst possible kind. 
The only thing that we can do is try to forcefully oppose this 
type of government that they have in the Taliban in 
Afghanistan.
    Let me note that we had an alternative. The King of 
Afghanistan, who has been in exile since the Russians took 
over, his wife was the one who first helped liberate the women 
of Afghanistan 50 years ago. He is a very pro western and 
moderate alternative for the people of Afghanistan who would 
love to have had the alternative.
    But, this Administration went in the other direction and 
instead undermined any efforts to bring the King back and 
undermined the efforts of the Northern Alliance, which are 
composed of people who are even more consistent with how you 
would like to see women treated in the Islamic countries, yet 
this Administration continually undermined the efforts of these 
groups to change the government of Afghanistan. It is an 
important issue, and it is important not just for women, but 
for everyone who believes in a broad sense of human rights that 
cover both genders and not just women's rights.
    I hope that you will take a look into it, and I hope that 
behind the scenes you will tell them that, No. 1, you expect 
the documents that we have requested be made available, and if 
those documents indicate that this Administration had a covert 
policy of supporting this horrendous, fascistic regime, the 
Taliban regime, that you will publicly or privately try to do 
what you can to change that policy.
    With that, I want to thank you for again being here today 
and putting up with my confrontation, and I declare this 
hearing adjourned.
    Ms. Loar. Thank you, Mr. Chairman.
    [Whereupon, at 11:41 a.m. the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 3, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7625.001
    
    [GRAPHIC] [TIFF OMITTED] T7625.002
    
    [GRAPHIC] [TIFF OMITTED] T7625.003
    
    [GRAPHIC] [TIFF OMITTED] T7625.004
    
    [GRAPHIC] [TIFF OMITTED] T7625.005
    
    [GRAPHIC] [TIFF OMITTED] T7625.006
    
    [GRAPHIC] [TIFF OMITTED] T7625.007
    
    [GRAPHIC] [TIFF OMITTED] T7625.008
    
    [GRAPHIC] [TIFF OMITTED] T7625.009
    
    [GRAPHIC] [TIFF OMITTED] T7625.010
    
    [GRAPHIC] [TIFF OMITTED] T7625.011
    
    [GRAPHIC] [TIFF OMITTED] T7625.012
    
    [GRAPHIC] [TIFF OMITTED] T7625.013
    
    [GRAPHIC] [TIFF OMITTED] T7625.014
    
    [GRAPHIC] [TIFF OMITTED] T7625.015
    
    [GRAPHIC] [TIFF OMITTED] T7625.016
    
    [GRAPHIC] [TIFF OMITTED] T7625.017
    
    [GRAPHIC] [TIFF OMITTED] T7625.018
    
    [GRAPHIC] [TIFF OMITTED] T7625.019
    
    [GRAPHIC] [TIFF OMITTED] T7625.020
    
    [GRAPHIC] [TIFF OMITTED] T7625.021
    
    [GRAPHIC] [TIFF OMITTED] T7625.022
    
    [GRAPHIC] [TIFF OMITTED] T7625.023
    
    [GRAPHIC] [TIFF OMITTED] T7625.024
    
    [GRAPHIC] [TIFF OMITTED] T7625.025
    
    [GRAPHIC] [TIFF OMITTED] T7625.026
    
    [GRAPHIC] [TIFF OMITTED] T7625.027
    
    [GRAPHIC] [TIFF OMITTED] T7625.028
    
    [GRAPHIC] [TIFF OMITTED] T7625.029
    
    [GRAPHIC] [TIFF OMITTED] T7625.030
    

</pre></body></html>
